WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-1547
Broidy Capital Management, LLC, et al. State of Qatar
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: David Zionts Digitally signed by David Zionis

Date: 5/7/21

(Type or print) Name (David M. Zionts

© mw. O Ms. O mrs. O Miss
Firm Covington & Burling LLP
Address One CityCenter, 850 Tenth Street NW
City & State | Washington, DC Zip 20001
Phone 202-662-5987 Email \zionts@cov.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

George J. Terwilliger III, McGuire Woods LLP
